OIG Investigative Reports, Press Release Atlanta, Georgia December 03, 2013 -  Tutor to Low Income Children Accused of Forgery
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
GEORGIA DEPARTMENT OF LAW
SAMUAL S. OLENS
ATTORNEY GENERAL
40 CAPITAL SQUARE SW
ALTANTA, GA 30334-1300
law.ga.gov
(404) 656-3300
PRESS ADVISORY
Tutor to Low Income Children Accused of Forgery
December 3, 2013
On Tuesday, November 26, 2013, the Fulton County Grand Jury charged Domonique Scott with one count of Forgery in the First Degree (O.C.G.A. § 16-9-1) and three counts of False Statements (O.C.G.A. § 16-10-20) for falsifying an application to provide tutoring to low income children.
In January 2010, Scott submitted an application to the Georgia Department of Education to qualify as a provider for a federal program called Supplemental Education Services (SES). SES offers free academic assistance, such as tutoring or remedial help, to low income families whose children attend a Title I school that has been designated by the State to be in need of improvement for more than one year. At the time of this offense, the State approved SES providers through an application process that aimed to vet each provider’s educational abilities as well as their financial stability.
The indictment alleges that on her application, Scott falsified the financial assets and liabilities of her company, A Love of Learning Tutoring, making it appear as if it was thriving when, in fact, it only existed on paper. She provided a false balance sheet, a false statement of net income, a program summary showing a false start date for the company and a forged letter from a fictitious financial institution representing a non-existent cash line of credit.
As a result of her fraudulent application, Scott’s company was hired to tutor children in Bibb, Richmond, Muscogee, DeKalb and Clayton Counties. The company has been terminated from the SES program.
Forgery in the First Degree is punishable by one to ten years imprisonment and a fine of up to $100,000. False Statements is punishable by one to five years imprisonment and a fine of up to $100,000.
Assistant Attorney General Blair McGowan is prosecuting the case on behalf of the State of Georgia. The case was investigated by former Georgia Bureau of Investigation Agent Wesley Horne, William Donaldson of the Office of the State Inspector General, and La’Trishia Stallings of the U.S. Department of Education Office of the Inspector General.
Top
Printable view
Last Modified: 12/11/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov